HHS/OIG-Audit--"Review of the Ongoing Los Angeles County Fingerprinting
Demonstration Project, (A-09-95-00054)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Ongoing Los Angeles County Fingerprinting Demonstration
Project," (A-09-95-00054)
May 9, 1996
Complete
Text of Report is available in PDF format (826 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of a 3-year (April 1994
through March 1997) demonstration project in Los Angeles County named the Automated
Fingerprint Image Reporting and Match System (AFIRM). The primary purpose of
the project is to detect and deter multiple case fraud in the Aid to Families
with Dependent Children (AFDC) program in a cost-effective manner. Our review
showed that, to date, the AFIRM project is inconclusive as to how well fingerprinting
works in combating multiple case fraud. However, the project has had a significant
impact in removing cases from the AFDC roles, with savings estimated to be
in excess of the $20.6 million approved for operating the project. However,
most of these savings were not attributable to the detection and deterrence
of multiple case fraud, but to other types of fraud and to the termination
of cases due to the failure of recipients to keep interview appointments. We
make no recommendations in our report, but are providing the report to ACF
for their use in making future decisions involving the use of automated fingerprinting
technology in the AFDC program.